U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                  Office of the Secretary


          Commerce Needs to Strengthen
          Its Improper Payment Practices
                          and Reporting


                     Final Report No. OIG-11-021-A

                                    March 25, 2011




                FOR PUBLIC RELEASE



                      Office of Audit and Evaluation
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        Office of Inspector General
                                                        Washington. D.C. 20230




March 25,2011

MEMORANDUM FOR:              Scott B. Quehl
                             Assistant Secretary for Administration
                             and Chief Financial Officer


FROM:	                       Ann C. Eilers        fYW'.   ~ ;;i:ie \5
                             Principal Assistant Inspector General
                             For Office of Audit and Evaluation

SUBJECT:	                    Commerce Needs to Strengthen
                             Its Improper Payment Practices and Reporting
                             Final Report No. OIG-II-021-A

This memorandum transmits our final report on the Department's need to strengthen improper
payment practices and improve improper payment reporting.

We based our audit on the review of grant fraud prevention and detection in four bureaus
receiving American Recovery and Reinvestment Act of2009 grant funding: the Economic
Development Administration (EDA), National Institute of Standards and Technology (NIST),
National Oceanic and Atmospheric Administration (NOAA), and National Telecommunications
and Information Administration (NTIA). Since our January 26,2011, draft report
recommendations affect all Commerce bureaus, we addressed our recommendations to you as
the Department's Chief Financial Officer.

We found that the bureaus were generally in compliance with OMB guidance on improper
payments and preventing and detecting grant fraud, waste, and abuse; however, several
improvements should be made. All four bureaus provided improper payment reporting as
required; however, the reporting was incomplete because the bureaus did not consider all sources
of improper payment information when compiling their reports. Additionally, the Department's
recovery audit efforts did not elect to include several categories of payments, thus reducing the
audits' effectiveness at detecting improper payments. We discussed these issues with senior
Commerce, EDA, NIST, NOAA, and NTIA officials during our exit conferences.

Your March 16,2011, response concurs with our draft report's recommendations and states that
the Department is improving its processes to successfully implement the Improper Payments
Elimination and Recovery Act of2010, which provides more clarity about improper payment
categories. We are encouraged by your outreach to the Office of Management and Budget for
guidance and your prompt action to develop an audit action plan.
In accordance with Department Administrative Order 213-5, please provide us with your audit
action plan with 60 days of the date of this memorandum. We extend our thanks to the
Department and its bureaus for the courtesies shown to us during our fieldwork. If you have any
questions, please contact me at (202) 482-2754 or John Bunting at (303) 312-7663.

Attachment

cc:	   Gordon Alston, Deputy Director for Financial Management
       Joshua Barnes, Audit Liaison, EDA
       William F. Broglie, Chief Administrative Officer, NOAA
       Milton Brown, Audit Liaison, NTlA
       Lisa Casias, Deputy Chief Financial Officer
       Mack Cato, Audit Liaison, NOAA
       John R. Fernandez, Assistant Secretary for Economic Development
       Patrick D. Gallagher, Director, National Institute of Standards and Technology
       Trudy Gallic, Audit Liaison
       Usha Ganti, Chief, Grants and Agreements Management Division, NIST
       Rachel Kinney, Audit Liaison, NIST
       Rhonda C. Lawrence, Audit Program Manager, NOAA
       Dr. Jane Lubchenco, Under Secretary of Commerce for Oceans and Atmosphere, NOAA
       Aimee Meacham, Compliance and Audit Team, NTIA
       Mitchell J. Ross, Director, Acquisitions and Grants Office, NOAA
       Lawrence E. Strickling, Assistant Secretary for Communications and Information
            and NTIA Administrator




                                               2

                                       Report In Brief
                                               U.S. Department of Commerce Ofﬁce of Inspector General
                                                                   March 25, 2011



Why We Did This Review                 Ofﬁce of the Secretary
The Ofﬁce of Inspector General
(OIG) initiated this audit to review   Commerce Needs to Strengthen Its Improper Payment
the Department’s compliance with
                                       Practices and Reporting (OIG-11-021-A)
Ofﬁce of Management and Budget
(OMB) guidance for preventing
and detecting grant fraud, waste,      What We Found
and abuse.
                                       We sampled four bureaus—the Economic Development Administration (EDA), National
We focused on the Department’s         Institute of Standards and Technology (NIST), National Oceanic and Atmospheric Ad-
practices for reporting improper       ministration (NOAA), and National Telecommunications and Information Administration
payments—payments that either          (NTIA)—that received funding and awarded grants through ARRA. We found that the
should not have been made, or          bureaus were generally in compliance with OMB guidance on improper payments and pre-
                                       venting and detecting grant fraud, waste, and abuse; however, several improvements should
that were made to ineligible
                                       be made. We concluded that
recipients or for ineligible goods
and services—related to American       1. 	 Commerce did not have a comprehensive policy addressing all categories of improper
Reinvestment and Recovery Act of            payments; as a result, the four bureaus did not have practices in place to accurately re-
2009 (ARRA) funds.                          port and recover improper payments. While the previous OMB guidance lacked clarity,
                                            recent draft guidance clearly identiﬁes additional categories of payments.
In particular, we assessed whether
the bureaus we reviewed (1) had     2. 	 Commerce did not elect to include grants in its improper payments reporting or annual
processes in place to accurately         recovery audits. By not including grants, the Department missed an opportunity to ﬁnd
report and recover improper pay-         and recover erroneous payments.
ments; (2) completed risk assess-   3. 	 NIST, NOAA, and NTIA completed program risk assessments, but the assessments
ments of ARRA grant programs             did not adequately measure the risk of fraud; EDA identiﬁed program risks, but did not
and included risks specifically          determine a risk rating, which is an integral part of a risk assessment and is required by
addressing fraud, waste, and abuse;      OMB guidance.
(3) completed thorough internal
controls assessments; and (4) com- 4. 	 All of the bureaus we reviewed had completed internal controls assessments; however,
plied with OMB’s ARRA website            these assessments were not included in the program risk assessments. The assessments
requirements.
                                         also did not include speciﬁc fraud risk scenarios as a best practice.

                                       5. 	 All of the bureaus we reviewed were in compliance with OMB requirements to link
                                            their websites to the OIG website to report fraud, waste, and abuse.
Background
The overarching goal of ARRA
was to stimulate the U.S. economy What We Recommended
by creating new jobs, investing in
long-term growth, and encouraging While we focused our review on the practices of these four bureaus, we addressed our rec-
accountability and transparency in ommendations to the Department as a whole since improper payments reporting is required
government spending.               for all programs and bureaus. We recommend the Department’s Chief Financial Officer
                                       work with bureaus and programs to
The Improper Payments Informa-
                                     1. 	 provide additional improper payment guidance and training to Commerce bureaus to
tion Act of 2002 was enacted to
                                          identify the categories, including grants, of improper payments that are required for im-
increase public trust in government
spending. The act requires the head
                                          proper payment reporting, and ensure that all categories are accurately and completely
of each agency to review its pro-         reported;
grams, which now include ARRA 2. 	 include grant payments in future recovery audits; and
grants and contracts, for signiﬁcant
                                     3. 	 expand internal control and program risk assessments to include specific fraud
improper payments, and to report
                                          scenarios so that increased program and financial management attention can be focused
these payments to Congress.
                                           on the likeliest risks for fraud, waste, and abuse.
U.S. Department of Commerce                                                                              Final Report No. OIG-11-021-A

Office of Inspector General                                                                                             March 25, 2011



                                                                 Contents


Introduction..................................................................................................................................... 1 

Findings and Recommendations ..................................................................................................... 4 

    I.     Department of Commerce Needs to Improve Improper Payment Practices ........................ 4 

         A. Bureaus’ Improper Payment Practices Are Incomplete ................................................... 4 

         B. OMB Criteria Encourage Inclusion of Grants in Recovery Audits ................................. 7 

    II. Program Risk Assessments Need Increased Emphasis on Fraud Scenarios ........................ 8 

Summary of Agency Comments and OIG Response.................................................................... 10 

Appendix A: Objectives, Scope, and Methodology ..................................................................... 11 

Appendix B: Agency Comments to Draft Report......................................................................... 13 





 
U.S. Department of Commerce                                                                 Final Report No. OIG-11-021-A

Office of Inspector General                                                                                March 25, 2011



                                                               Introduction


The Office of Inspector General (OIG) initiated this
audit to review the Department’s compliance with                              Recent Laws and Guidance for
Office of Management and Budget (OMB) guidance                                Preventing Improper Payment Fraud,
for preventing and detecting grant fraud, waste, and                          Waste, and Abuse
abuse. We targeted our review toward American                                 Public Law 111-204, Improper Payments
Reinvestment and Recovery Act of 2009 (ARRA)                                  Elimination and Recovery Act of 2010
funds because Department of Commerce bureaus                                  (IPERA), updates and amends the Improper
received significant funds under ARRA and were                                Payments Information Act of 2002. IPERA
                                                                              requires the head of each agency to identify
encouraged to obligate and spend them expediently;
                                                                              programs that may be susceptible to significant
as a result, these funds have a higher risk for waste,                        improper payments by considering a variety of
fraud, and abuse. In order to ensure Commerce is                              risk factors. IPERA also imposes stricter
using the appropriate procedures to guard against,                            improper payment reporting requirements on the
report, and recover improper payments, our audit                              agencies.
included a review of the improper payments process.                           Office of Management and Budget (OMB)
Federal agencies make more than $2 trillion in                                Memorandum M-11-04, issued November
                                                                              2010, Increasing Efforts to Recapture
payments to individuals and a variety of other entities                       Improper Payments by Intensifying and
each year.1 In fiscal year 2010, improper payments                            Expanding Recapture Audits, lowers the
made by the federal government totaled $125 billion.2                         threshold for conducting payment recapture
The President has given his administration the                                audits to $1 million in annual outlays if
aggressive goal of reducing government-wide                                   conducting such audits would be cost effective.
improper payments by $50 billion and recapturing                              Executive Order 13520, issued November
under existing criteria and authorities at least                              2009, Reducing Improper Payments, directs
$2 billion in actual improper payments by FY 2012.3                           agencies to reduce improper payments, and
                                                                              requires OMB to identify high-priority
The Improper Payments Information Act of 2002,                                programs, establish targets for improper
Pub. L. No. 107-300, was enacted to increase public                           payment reduction, and issue government-wide
trust in government spending. The act requires the                            guidance.
head of each agency to annually review its programs,
                                                                              Presidential Memorandum, Enhancing
which now include ARRA grants and contracts, to                               Payment Accuracy Through a “Do Not Pay
identify programs or activities that are susceptible to                       List.” The June 28, 2010, memorandum
significant improper (or “erroneous”) payments.4 The                          emphasized the importance of prevention of
act also requires agencies to report improper                                 improper payments as compared to detection
payments to Congress and provide an action plan to                            and recovery, and directed agencies to review
                                                                              recipient eligibility in prepayment and pre-
reduce further erroneous payments.                                            award procedures before making payments or
                                                                              awards.
                                                            
1
  White House, Office of Management and Budget. Office of Federal Financial Management Improper Payments

[online], www.whitehouse.gov/omb/financial_fia_improper/ (accessed January 21, 2011). 

2
  Payment Accuracy. Learn More About Improper Payments The Problem [online].

www.paymentaccuracy.gov/content/about-improper-payments (accessed January 21, 2011).

3
  Office of Management and Budget, November 16, 2010. Increased Efforts to Recapture Improper Payments by

Intensifying and Expanding Payment Recapture Audits. Memorandum M-11-04, 1.

4
  Significant erroneous payments are defined as annual erroneous payments in the program that exceed both 

2.5 percent of program payments and $10 million.


                                                                    1

U.S. Department of Commerce                                                                  Final Report No. OIG-11-021-A

Office of Inspector General                                                                                 March 25, 2011



As ARRA increased the focus on government spending and transparency, new legislation,
executive orders, and improper payment guidance were issued to increase improper payment
requirements, as detailed in the textbox on the previous page. The Improper Payments
Elimination and Recovery Act of 2010 (IPERA), passed in July 2010, enhanced the 2002 act by
expanding the criteria for determining whether a program may be susceptible to improper
payments, expanding the types of programs required to conduct recovery audits, lowering the
review threshold for programs and activities from $500 million to $1 million in payments, and
providing steps for federal agencies to take in order to improve their error reduction efforts
should they be found to be non-compliant.5 The new legislation and guidance highlight the
importance of and increased emphasis on prevention, detection, and reporting of improper
payments made with all appropriations, including ARRA funds.
The overarching goal of ARRA was to stimulate the U.S. economy by creating new jobs,
investing in long-term growth, and encouraging accountability and transparency in government
spending. As part of the plan to reach that goal, ARRA provided more than $5.1 billion in grants
and almost $2.8 billion for contracts and staffing to five of Commerce’s bureaus—the Census
Bureau, the Economic Development Administration (EDA), the National Institute of Standards
and Technology (NIST), the National Oceanic and Atmospheric Administration (NOAA), and
the National Telecommunications and Information Administration (NTIA)—as well as OIG.
(See table 1 for a breakdown of the funds that went to these bureaus.) NTIA appropriations, for
the Broadband Technology Opportunity Program (BTOP) and the Digital-to-Analog Converter
Box Program, made up 67 percent of Commerce’s total ARRA appropriations. Census, EDA,
NIST, NOAA, and OIG received the rest.


                           Table 1. Department of Commerce Appropriations 

                           American Recovery and Reinvestment Act of 2009 

                                                                 Grants           Contracts &                 Total
     Bureau                                                    (Millions)   Staffing (Millions)          (Millions)
     Census                                                                            $1,000              $1,000

     EDA                                                       $    150                                        150

     NIST                                                           257                   353                  610

     NOAA                                                           207                   623                  830

     NTIA                                                          4,549                  801                5,350

     OIG                                                                                     6                   6

     Total                                                         5,163                2,783                7,946
     Source: American Recovery and Reinvestment Act of 2009 and the Department of Commerce
     Program Tracking Report, June 22, 2010.



                                                            
5
    White House, Office of the Press Secretary, July 22, 2010.


                                                                        2
U.S. Department of Commerce                                                 Final Report No. OIG-11-021-A

Office of Inspector General                                                                March 25, 2011



As of December 12, 2010, ARRA obligations totaled $6.8 billion; total disbursements were
$1.9 billion; and transfers, memorandums of understanding, and rescissions were $1.1 billion.6
The Department expects disbursements to increase exponentially once NTIA receives and
finalizes all BTOP environmental assessments.7 Since all BTOP grants were required to be
awarded by September 30, 2010, and completed within 3 years, the amount of payments or
disbursed funds is expected to increase through 2013.8
The objective of our audit was to determine whether the Commerce bureaus that received ARRA
funds for grants complied with OMB ARRA guidance (OMB M-09-15) to mitigate the potential
for grant fraud, waste, error, and abuse. In particular, we assessed whether the bureaus (1) had
processes in place to accurately report and recover improper payments; (2) completed risk
assessments of ARRA grant programs and included risks specifically addressing fraud, waste,
and abuse; (3) completed thorough internal controls assessments; and (4) complied with OMB’s
ARRA website requirements. The audit scope included ARRA grant processes for EDA, NIST,
NOAA and NTIA. We sampled only these four bureaus since each received ARRA funding and
awarded grants, but we addressed our recommendations to the Department as a whole since
improper payments reporting is required for all programs and bureaus. Appendix A contains a
full description of our objectives, scope, and methodology for this audit. We found that the
bureaus were generally in compliance with OMB guidance on improper payments and
preventing and detecting grant fraud, waste, and abuse; however, several improvements should
be made. We concluded that
       1.	 Commerce did not have a comprehensive policy addressing all categories of improper
           payments, and as a result, EDA, NIST, NOAA, and NTIA did not have practices in place
           to accurately report and recover improper payments. While the previous OMB guidance
           lacked clarity, recent draft OMB guidance on implementing IPERA of 2010 clearly
           identifies additional categories of payments.
       2.	 Commerce did not elect to include grants in its improper payments reporting or recovery
           audits.
       3.	 NIST, NOAA, and NTIA completed program risk assessments, but the assessments did
           not adequately measure the risk of fraud; EDA identified program risks, but did not
           determine a risk rating, which is an integral part of a risk assessment and is required by
           OMB guidance.
       4.	 All of the bureaus we reviewed completed internal controls assessments; however, these
           assessments were not included in the program risk assessments and did not include a best
           practice of specific fraud risk scenarios.
       5.	 All of the bureaus we reviewed had complied with OMB M-09-15 requirements to link
           their websites to the OIG website to report fraud, waste, and abuse.




                                                            
6
  Department of Commerce, December 12, 2010, Bureau Spending Report. 

7
  Department of Commerce Office of Inspector General, November 4, 2010. Broadband Program Faces Uncertain

Funding, and NTIA Needs to Strengthen Its Post-Award Operation, OIG-11-005-A, 2.

8
  OIG, Broadband Program Faces Uncertain Funding, 6.



                                                               3

U.S. Department of Commerce                                                               Final Report No. OIG-11-021-A

Office of Inspector General                                                                              March 25, 2011



                                                           Findings and Recommendations


I.	 Department of Commerce Needs to Improve Improper Payment Practices

A. Bureaus’ Improper Payment Practices Are Incomplete
The Improper Payments Information Act of 2002 provides the following definition of improper
payments:

              (A) means any payment that should not have been made or that was made in an
              incorrect amount (including overpayments and underpayments) under statutory,
              contractual, administrative, or other legally applicable requirements; and (B)
              includes any payment to an ineligible recipient, any payment for an ineligible
              service, any duplicate payment, payments for services not received, and any
              payment that does not account for credit for applicable discounts.

Appendix C of OMB Circular A-123 (2006) defines payment as any payment that is
       •	 derived from federal funds or other federal sources,
       •	 ultimately reimbursed from federal funds or resources; or
       •	 made by a federal agency, a federal contractor, a governmental or other organization
          administering a federal program or activity.


Appendix C of the circular further states that this includes federal awards subject to the Single
Audit Act Amendments of 1996 that are expended by both recipients and sub-recipients.
The Department’s improper payment reporting does not include all types of improper payments.
The Department’s reporting includes overpayments, underpayments, duplicate payments, or
erroneous vendor payments made through the Department’s accounts payable system, but the
Department does not consider a grant recipient’s cash drawdown from Treasury accounts to be a
payment, or an improper payment, even if the drawdown results in disallowed cost. However, the
broad definition of improper payments includes the recipient’s use of the funds to pay for
services not received, or for an ineligible service such as questioned or unsupported costs that
result in disallowed costs identified in OIG grant audits, single audits9 of grants, or Defense
Contract Audit Agency contract audits. In a conference call with OIG and Commerce’s Office of
Financial Management, an OMB Federal Financial Management official concurred with this
definition of improper payments.
The Department does not include ineligible services in its reporting on improper payments in the
annual Performance and Accountability Report; it also states that additional OMB guidance is
needed to define ineligible services as a disallowed cost. While past OMB guidance did not
provide complete direction on ineligible services being reported as improper payments, the OMB

                                                            
9
  OMB A-133 defines a “single audit” as an audit that includes both the audited entity's financial statements and
federal awards. Office of Management and Budget, June 2007. Circular No. A-133, 7.


                                                                        4

U.S. Department of Commerce                                                      Final Report No. OIG-11-021-A

Office of Inspector General                                                                     March 25, 2011



official with whom we spoke confirmed that OMB is drafting additional guidance for including
disallowed costs as improper payments. Also, IPERA clearly defines an ineligible service as “a
payment for any good or service that is rejected under any provision of any contract, grant, lease,
cooperative agreement, or any other funding mechanism.” 10
The Department has several other considerations to address in its improper payment reporting.
NIST, for example, considers payments improper only if detected as such in its accounts payable
system, not including grants. EDA informed us that recovery audits, OIG reviews and audits,
single audit reports, and reports from the public are included in its reporting; however, single
audits with more than $1.1 million in disallowed costs for EDA grants had not been considered
for reporting under the 2002 act. NOAA does not search OIG audits, single audits, or
investigations for further improper payment information.
Commerce has not addressed all categories of improper payments so that bureaus can report
payments consistently and completely. Such a policy should include a comprehensive list of
improper payments that might occur as a result of grant disbursements as well as those
discovered through publicly released audit reports. Appendix C of OMB Circular No. A-123
provides a list of improper payments that should be included in bureau and department tracking
and reporting as well as other requirements for addressing improper payments. Table 2 (on the
next page) summarizes this list and illustrates the bureaus’ current practice with each
requirement.
To ensure compliance with the new IPERA and OMB guidance, and a more complete reporting
of improper payments, the Department must expand the scope of its reporting and include
improper payment categories that exceed minimum reporting requirements. For example,
Commerce bureaus reported about $3.5 million in erroneous payments to the Department in
fiscal year 2010, with the Census Bureau reporting and recovering almost $3.4 million of that
amount. Additional sources of improper payment data, however, such as more than $7 million in
disallowed costs published in the Department’s FY 2010 Performance and Accountability
Report,11 were not included. If the additional $7 million in disallowed costs were included, total
improper payments would be three times the amount currently being reported.




                                                            
10
     Pub. L. No. 111-204, § 2(e).

11
     Department of Commerce, FY 2010 Performance and Accountability Report, II, 38.



                                                               5

U.S. Department of Commerce                                                                                   Final Report No. OIG-11-021-A

Office of Inspector General                                                                                                  March 25, 2011



                                       Table 2. Reporting Requirements and Bureau Practices
OMB A123 Requirement                                                                EDA          NIST         NOAA            NTIA
                                                                                  Limited to   Limited to   Limited to      Limited to
Report estimated annual amount of improper payments in programs and
                                                                                  accounts     accounts     accounts        accounts
activities and make progress in reducing them.
                                                                                   payable      payable      payable         payable
Track and report improper payments identified and recovered through various
agency endeavors such as
   • agency post-payment reviews to determine the accuracy of payments,              Yes          Yes          Yes              No
   • OIG reviews/audits,
   • single audit reports,                                                           No           No           No               No
   • self-reported overpayments, and                                                 No           No           No               No
   • reports from the public submitted through online websites, telephone            Yes          Yes          Yes              Yes
       hotlines, or other methods.a                                                  No           No           No               No
                                                                                                            Limited to
                                                         b                                                  pre-award
Implement a plan to reduce erroneous payments.                                       Yes          Yes                           Yes
                                                                                                               due
                                                                                                            diligence
Implement and maintain a cost-effective program of internal control to prevent,
                                                                                     Yes          Yes          Yes             Yesd
detect, and recover overpayments to contractors resulting from payment errors.c
Determine, prior to payment, if the recipient is on a do-not-pay list (fugitive
felons, master death file, debarred, etc.) that precludes them from receiving a      Yes          Yes          Yes             Yesf
government payment.e
Source: OIG analysis.
a
  OMB Circular, Appendix C, Part III (B) (3) (o)
b
  OMB Circular A-123, Appendix C, Part I (E), Step 3
c
  OMB Circular A-123, Appendix C, Part II (A)
d
  NTIA relies on NIST and NOAA for practices.
e
  OMB Circular A-123, Appendix C, Part III (A) (1) (c)
f
  NTIA relies on NIST and NOAA for practices.




                                                                        6
                                                                            

U.S. Department of Commerce                                                            Final Report No. OIG-11-021-A

Office of Inspector General                                                                           March 25, 2011



B. OMB Criteria Encourage Inclusion of Grants in Recovery Audits
Every year, Commerce conducts a recovery audit as part of its management responsibility
directed at recapturing improperly made payments. From fiscal years 2006 through 2010,
Commerce has identified and reported only one recovery, for less than $100,000.
Since 2006, OMB guidance on improper payments has encouraged, but not required, that grants
be included in recovery audits. The Department’s recovery audit sampling method includes
examining disbursements that exceed $100,000, but excludes travel payments, bankcard
transactions, purchase card transactions, all procurements with other federal agencies, and grants.
In FY 2010, the Department awarded almost $6 billion in grants (including over $5 billion in
ARRA funds) amounting to about 27 percent of the $21.8 billion in FY 2010 Commerce budget
authority of $13.9 billion and $7.9 billion one-time ARRA appropriations. Because the
Department did not elect to include grants in its recovery audits from 2006 to 2010, annual grant
totals ranging from $1 to $6 billion were not tested—eliminating an opportunity to find and
report significant erroneous payments.
                               Figure 1. FY 2006-2010 Grant Awardsa


                        6 
             Billions




                        5 

                        4 

                        3                                                                            EDA
                                                                                                     NIST
                        2 
                                                                                                     NOAA
                        1 
                                                                                                     NTIA
                        ‐
                                 2006        2007       2008        2009       2010

                            Source: Office of Acquisition Management, Grants.

                            a The Office of Secretary, Minority Business Development Agency, and 


                            International Trade Administration totals were below $75M and are 

                            therefore too small to display on this graph.




New requirements set forth in IPERA and Executive Order 13520 specifically include grants as
an improper payment category and lower the threshold for recapturing improper payments to
activities with more than $1 million in annual outlays (if conducting such audits would be cost
effective). Since most FY 2010 grant awards are for BTOP grants, which have payments
extending up to 3 years, the Department has an opportunity to include these awards in its FY
2011 through 2013 testing. The existing audit resolution process for grants and cooperative
agreements in Department Administrative Order 213-5 provides a cost-effective approach to
recovery audits for disallowed costs for grants and cooperative agreements. Because this



                                                             7

U.S. Department of Commerce                                                      Final Report No. OIG-11-021-A

Office of Inspector General                                                                     March 25, 2011



coverage is mandatory beginning in FY 2011, Commerce bureaus need to prepare for the more
stringent compliance requirements by including grant payments in their recovery audits.


Recommendations

We recommend that the Chief Financial Officer work with bureaus and programs to
       1.	 provide additional improper payment guidance and training to Commerce bureaus to
           identify the categories, including grants, of improper payments that are required for
           improper payment reporting, and ensure that all categories are accurately and completely
           reported; and
       2.	 include grant payments in future recovery audits.


II. Program Risk Assessments Need Increased Emphasis on Fraud Scenarios

Fraud, by definition, entails intentional misconduct, designed to evade detection. Fraud risk is
“[t]he vulnerability that an organization has to those with motive and ability to commit fraud.”12
According to the American Institute of Certified Public Accountants’ Managing the Business
Risk of Fraud: A Practical Guide, an effective fraud risk management assessment should identify
“…where fraud may occur and who the perpetrators might be.” The guide identifies three steps
in assessing risk:
       1.	 Identify inherent fraud risk: “…explicit consideration of all types of fraud schemes and
           scenarios; incentives, pressures, and opportunities to commit fraud; and IT fraud risks
           specific to the organization.”
       2.	 “Assess the relative likelihood and potential significance of identified fraud risks based
           on historical information, known fraud schemes, and interviews with staff, including
           business process owners.”
       3.	 “Decide what the response should be to address the identified risk…”13


The bureaus’ program risk assessments do not adequately assess fraud risk. Each of the four
bureaus included in our audit completed a risk assessment; however, the assessments focused on
program management risks and did not include comprehensive assessments of fraud risk
scenarios. Although OMB guidance does not require the inclusion of specific fraud scenarios
within the program risk assessments, the Institute of Internal Auditors, American Institute of
Certified Public Accountants, and Association of Certified Fraud Examiners name identifying
and assessing the risk of specific fraud scenarios as a best practice. Our examination of the
bureaus’ risk assessments revealed the following:



                                                            
12
   Definition taken from the Association of Certified Fraud Examiners, 2010. Fraud Examiners Manual, Section 4, 

Fraud Risk Assessment, 801.

13
   Managing the Business Risk of Fraud, 20. 



                                                               8

U.S. Department of Commerce                                            Final Report No. OIG-11-021-A

Office of Inspector General                                                           March 25, 2011



    •	 Of the four bureaus, only NTIA included fraud risk as part of its risk assessment;
       however, that assessment included only one line item focused on overall fraud risk and
       did not consider specific fraud scenarios.
    •	 EDA identified program risks, but they did not determine a risk rating, which is an
       integral part of a risk assessment and is required by OMB guidance. EDA chose to
       address the risks they identified through pre-award due diligence and pre-payment cost
       review. While these actions can help an organization prevent or detect fraud, EDA’s
       processes did not consider other fraud risks, such as the potential for grantees’
       management override and collusion. EDA also lacked a process to reassess and respond
       to risks throughout the grant period.
    •	 NIST’s risk assessment and mitigation plan did not take into account the risk of fraud,
       despite the high risk of grant fraud typically associated with construction projects. The
       risk assessments for NOAA Habitat Restoration and NIST focused on three types of
       risks—technical, schedule, and budgetary—and did not include fraud risk.


Fraud scenarios and other internal controls can focus increased program and financial
management attention on the likeliest fraud risks. Section 3.11 of OMB M-09-15 encourages
agencies to address, in their initial risk assessments, the adequacy of existing controls in
mitigating the risk of waste, fraud, and abuse. While the four bureaus completed internal control
assessments, the assessments did not specifically measure fraud risk, nor were they incorporated
into the bureaus’ overall program risk assessments.


Recommendation

We recommend that the Chief Financial Officer work with bureaus and programs to
    1.	 expand internal control and program risk assessments to include specific fraud scenarios
        so that increased program and financial management attention can be focused on the
        likeliest risks for fraud, waste, and abuse.


 




                                                 9

U.S. Department of Commerce                                          Final Report No. OIG-11-021-A

Office of Inspector General                                                         March 25, 2011



                   Summary of Agency Comments and OIG Response


The Department maintains that it is in full compliance with OMB requirements to date.
However, in its response to our draft report (appendix B), the Department concurs with our
recommendations for further improvement. Specifically,
   •	 Recommendations 1 and 2. The Department will improve the processes for
      implementing IPERA requirements. The Department also states that disallowed costs
      have not been considered in improper payments reporting and has requested clarification
      from OMB to ensure compliance with IPERA requirements.
   •	 Recommendation 3. The Department’s Office of Acquisition Management had
      previously established a management review process for ARRA grants and will include
      our recommendations in their future plans and review guidelines.
We are encouraged by the Department’s prompt actions to address our recommendations, and
where appropriate have adjusted our final report to reflect its comments.




                                               10

U.S. Department of Commerce                                         Final Report No. OIG-11-021-A

Office of Inspector General                                                        March 25, 2011



                    Appendix A: Objectives, Scope, and Methodology


The American Recovery and Reinvestment Act of 2009 (ARRA) includes about $5 billion in
grant funding for the Economic Development Administration (EDA), the National Institute of
Standards and Technology (NIST), the National Oceanic and Atmospheric Administration
(NOAA), and the National Telecommunications and Information Administration (NTIA). The
objective of our audit was to determine whether Department of Commerce bureaus complied
with the Office of Management and Budget’s (OMB’s) ARRA guidance to mitigate the potential
for fraud, waste, error, and abuse. In particular, we assessed whether the bureaus (1) had
processes in place to accurately track and report improper payments; (2) completed risk
assessments of ARRA grant programs and included risks specifically addressing fraud, waste,
and abuse; (3) completed thorough internal controls assessments; and (4) complied with OMB’s
ARRA website requirements.
The audit scope included ARRA grant processes for EDA, NIST, NOAA, and NTIA. We
sampled only these four bureaus since each received ARRA funding and awarded grants, but we
addressed our recommendations to the Department as a whole, since improper payment reporting
is required for all programs and all bureaus. We conducted our audit fieldwork from July 2010 to
September 2010 in Washington, D.C. (EDA and NTIA); Gaithersburg, Maryland (NIST); and
Silver Spring, Maryland (NOAA). We met our objectives and obtained an understanding of
internal controls by
   •	 interviewing EDA, NIST, NOAA, NTIA and Commerce representatives to gain an
      understanding of risk assessment, erroneous payment reporting, and internal control
      assessment processes;
   •	 reviewing risk and internal control assessments provided by each bureau; and
   •	 reviewing bureau websites to ensure compliance with OMB’s website requirements
      related specifically to fraud, waste, and abuse.


We reviewed bureau compliance with applicable provisions of pertinent laws and regulations,
including the following:

   •	 Improper Payments Information Act of 2002
   •	 OMB M-09-15, Interim Guidance for the American Recovery and Reinvestment Act of
      2009, sections 2.7, 2.20, 3.11, 5.4, and 5.9
   •	 OMB Circular A-123, Appendix C, Part I L and Part III


We reviewed computer-processed data and used them in this report to illustrate improper
payment and grant award information. We obtained supporting documentation for erroneous
payments and verified their reasonableness with agency financial personnel. For grants, we
obtained a listing of grants with bureau and fiscal year data. We compared the order of
magnitude of grants by bureau and fiscal year to appropriations or performance and


                                               11

U.S. Department of Commerce                                            Final Report No. OIG-11-021-A

Office of Inspector General                                                           March 25, 2011



accountability reports. We determined the data were sufficiently reliable for purposes of this
report.
We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.
We performed this audit under authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, August 31, 2006.




 




                                                12

U.S. Department of Commerce                               Final Report No. OIG-11-021-A

Office of Inspector General                                              March 25, 2011



                     Appendix B: Agency Comments to Draft Report




(ARRA000903) 



                                         13

